February 18, 2009

SUSAN M. BROWNELL
VICE PRESIDENT, SUPPLY MANAGEMENT

SUBJECT: Audit Report – The Postal Service’s Certification Process for Non-Mail
         Freight Transportation Invoices (Report Number CA-AR-09-002)

This report presents the results of our self-initiated audit of the U.S. Postal Service’s
certification process for non-mail freight transportation invoices (Project Number
08YG025CA000). Our objective was to assess whether Postal Service officials ensured
that non-mail freight transportation invoices were properly certified and goods and
services were received prior to invoice payment. See Appendix A for additional
information about this audit.

Conclusion

Postal Service officials could improve their oversight to ensure that non-mail freight
transportation invoices are properly certified, and goods and services are received.

Invoice Certification

Postal Service contracting officials did not certify $41,916,714 in invoices paid to Ryder
Integrated Logistics Inc. (Ryder) and C. H. Robinson Company (CHR) from July 1,
2006, through June 30, 2008. This occurred because the contracting officer (CO) relied
on annual post-performance invoice audits by the Defense Contract Audit Agency
(DCAA). While DCAA did perform two audits on a portion of the invoices for one of the
contractors, these audits did not — nor were they intended to — provide assurances
that contractors are properly rendering services. Determinations as to whether goods
and services were received should be performed by Postal Service officials at the
locations receiving the goods or services.

As a result, contracting officials cannot be assured that accurate rates are charged,
customers are receiving goods, deliveries are timely, and approved price schedules are
being used. Therefore, we classified payments of $41,916,714 as unrecoverable
unsupported questioned costs1 because significant internal controls were not properly

1
 Unrecoverable unsupported questioned costs are costs that are unnecessary, unreasonable or an alleged violation
of law or regulation. These costs are also not supported by adequate documentation. We question these costs
because no independent party performed required certification prior to payment.



        This report has not yet been reviewed for release under FOIA or the Privacy Act.
        Distribution should be limited to those within the Postal Service with a need to
        know.
The Postal Service’s Certification Process of                               CA-AR-09-002
 Non-Mail Freight Transportation Invoices


applied to the non-mail freight transportation invoices. We will report these unsupported
questioned costs in our Semiannual Report to Congress. See Appendix B for our
detailed analysis of this topic.

We recommend the Vice President, Supply Management, direct the Manager, Supply
Management Operations, to coordinate with the contracting officer to:

1. Develop and implement written procedures for the independent review of invoices to
   confirm the receipt of goods and services and to ensure accurate payment.

Management’s Comments

Management agreed with the finding, recommendation, and monetary impact and
stated the $41,916,714 of unrecoverable unsupported questioned costs was the result
of a miscommunication regarding their reliance on DCAA audits to assure that
contractors properly rendered services. Management stated they did not intend to
circumvent the invoice certification process, and agreed to develop an action plan to
include a determination on the use of a third party reviewer for the current contracts,
development of valid statistical sampling for invoice auditing, and an auditing process.
See Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendation and the corrective action should resolve
the issue identified in the finding. Regarding management’s statements about their
reliance on DCAA, we reiterate that neither DCAA nor we communicated that the
reviews should be relied upon as verification that contractors were properly rendering
services.

We will report $41,916,714 as unrecoverable unsupported questioned costs in our
Semiannual Report to Congress. The OIG considers the recommendation significant,
and therefore requires OIG concurrence before closure. Consequently, the OIG
requests written confirmation when management completes corrective actions. This
recommendation should not be closed in the Postal Service’s follow-up tracking system
until the OIG provides written confirmation that the recommendation can be closed.




                                                3
The Postal Service’s Certification Process of                             CA-AR-09-002
 Non-Mail Freight Transportation Invoices



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Judy L. Leonhardt, Director,
Supply Management, or me at (703) 248-2100.




Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Myrna J. Murphy
    James Dwight Young
    Stanley A. Lipinski
    Russell A. Sykes
    Royale A. Ledbetter
    James P. Leonard
    Frank R. Scheer
    Delores M. Gentry
    Katherine S. Banks




                                                4
The Postal Service Certification Process of                                                        CA-AR-09-002
 Non-Mail Freight Transportation Invoices


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service entered into contracts with CHR and Ryder for global surface and air
transportation services for non-mail freight in fiscal year (FY) 2006. The contracts
provide for carrier management, shipment management, online tools and training,
freight bill audit and payment, invoicing, claims management, and standardized
accessorial schedules and rates.

A Postal Service facility submits a request for the shipment of non-mail freight items to
CHR or Ryder.2 The contractor then solicits at least three bids and negotiates with
carriers depending on shipment requirements. The contractor provides facility officials
with the best quote. The facility official generates a bill of lading upon acceptance of the
quote. The contractor reviews the carrier’s charges and prepares an invoice including
its fees and the carrier’s fees to the Postal Service. The contracts allow the contractors
to self-certify their invoices and submit payments directly to the Information Technology
and Accounting Service Center (IT/ASC). The IT/ASC makes payments directly to the
contractor and the contractor pays the carrier.

From calendar year 2003 through part of 2006, the CO used prepayment audit services
provided by National Traffic Services (NTS) and post-payment audit services provided
by the U.S. General Services Administration (GSA) to validate freight transportation
payments on previous contracts.3 A prepayment audit compares the charges on the bill
against the charge permitted under the contract. The Postal Service paid NTS
$213,907 to review freight transportation invoices totaling $62,728,506 during this time.
NTS recovered $1,881,304 that was returned to the Postal Service. GSA post-payment
audits for the same period resulted in recoveries of approximately $87,000 returned to
the Postal Service. The CO did not retain the services of NTS or GSA to review CHR
and Ryder invoices.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assess whether Postal Service officials ensured that employees
properly certified non-mail freight transportation invoices and the agency received
goods and services prior to invoice payment. The scope of our audit included invoices
paid to CHR and Ryder from July 1, 2006, through June 30, 2008.

To accomplish our audit objective, we reviewed the CHR and Ryder contract files. In
addition, we reviewed the contractors’ actual practices to determine if they were

2
  A facility selects a contractor based on shipping requirements. CHR transports full truckload requirements only.
Ryder transports both full truckload and less than full truckload.
3
  GSA administers the pre-payment and post-payment audit programs of freight transportation payments under 41
CFR, Sections 102-118. An agency may perform a required prepayment audit by creating an internal prepayment
audit program, contracting directly with a prepayment audit service provider, or using a GSA contractor.




                                                          5
The Postal Service Certification Process of                                         CA-AR-09-002
 Non-Mail Freight Transportation Invoices


meeting requirements for verifying receipt of goods. We also interviewed the CO and
the CO’s representative to determine what controls, procedures, data, and guidelines
are used to ensure goods are received and invoices are prepared and certified.

We conducted our audit from June 2008 through February 2009 in accordance with
generally accepted government auditing standards and included tests of internal
controls that were necessary under the circumstances. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. We discussed our observations and
conclusions with management officials on January 5, 2009. We relied on data obtained
from the contractor database systems. We did not audit these systems directly, but
performed a limited review of data integrity to support our reliance on the data. We
compared invoice data the contractors provided to invoices paid in the Postal Service’s
Accounts Payable System. As a result, we found no variances and confirmed the
invoices were paid.

PRIOR AUDIT COVERAGE

We identified five DCAA reports issued within the past 4 years related to this subject.

                                           Final
                        Report            Report        Monetary
  Report Title          Number             Date          Impact           Report Results
Financial Risk         CA-CAR-         11/15/2005       $0         The financial risk assessment did
Assessment of          06-004                                      not show indications of significant
Ryder of Ann                                                       unfavorable financial conditions
Arbor, Michigan                                                    that would warrant the
                                                                   performance of a detailed financial
                                                                   capability audit.
Audit of Accounting    CA-CAR-         12/16/2005       $0         The audit determined the
System and             06-008                                      contractor’s accounting system is
Financial                                                          adequate for accumulating and
Capability Risk                                                    billing costs.
Assessment of
C.H. Robinson                                                      The audit also determined there
Worldwide                                                          are no indications of significant
                                                                   conditions that would warrant the
                                                                   performance of a financial
                                                                   capability audit.




                                                    6
The Postal Service Certification Process of                                         CA-AR-09-002
 Non-Mail Freight Transportation Invoices


Agreed Upon            CA-CAR-         3/1/2006        $0         The review determined the costs
Procedures Review      06-011                                     included in C.H. Robinson
to Verify Costs                                                   invoices are in accordance with
Included on                                                       the terms of the contract and are
Invoices Submitted                                                reasonable and adequately
for Reimbursement                                                 supported.
by C.H. Robinson
Worldwide
5BMSTR-05-B-
3003
Report on Key          CA-CAR-         7/30/2007       $203,498   The audit determined the
Performance            07-017                                     contractor is not meeting key
Indicators including                                              performance indicator goals for
Procurement                                                       on-time delivery and pickup. In
Savings of Contract                                               addition, the contractor overstated
5BSMSTR-05-B-                                                     overall cost savings for the period
3002 and                                                          January 1 through June 30, 2006,
Accounting System                                                 by $203,498.
of Ryder Integrated
Logistics                                                         The contractor concurred with the
Incorporated                                                      intent of the findings and
                                                                  recommendations.
Specific Costs         CA-CAR-         5/7/2008        $0         DCAA disclosed that fuel
Included on            08-021                                     surcharges billed resulted in
Invoices Submitted                                                instances where the amount
by C.H. Robinson                                                  charged did not match the diesel
Worldwide                                                         fuel price indices.

                                                                  DCAA also identified program
                                                                  management issues that warrant
                                                                  corrective action by the CO.
                                                                  The contractor agreed with the
                                                                  intent of the findings and
                                                                  recommendations.




                                                   7
The Postal Service Certification Process of                                                  CA-AR-09-002
 Non-Mail Freight Transportation Invoices


                                APPENDIX B: DETAILED ANALYSIS

Invoice Certification

Postal Service officials could improve their oversight to ensure that non-mail freight
transportation invoices are properly certified and goods and services are received.
Specifically, contracting officials did not certify $41,916,714 in invoices paid to Ryder
and CHR from July 1, 2006, through June 30, 2008. The CO’s representative did not
independently test invoices or transactions reported by the contractors on their bi-
weekly report to validate that goods and services were received and invoices were
accurate. The CO and CO’s representative stated they assumed contractor information
was accurate unless they received complaints from customers. In addition, they did not
review or validate rates prior to the contractor submitting invoices directly to the IT/ASC
for payment. They relied strictly on the contractors’ self-certification of invoices.

This occurred because the CO relied on annual post-performance audits by DCAA to
review invoices. While DCAA performed two audits on a portion of the invoices for one
of the contractors, these audits were based on agreed upon procedures and did not, nor
were they intended to, provide assurances that contractors are properly rendering
services. Postal Service officials at the locations receiving those goods or services
should determine whether the goods and services were received. The CO stated he did
not have the resources to conduct independent reviews of the invoices.

The CO is responsible for verifying the accuracy of invoices by reviewing the prices
established for products and/or services and ensuring that contract performance is
meeting Postal Service requirements.4 The Postal Service engaged the services of
Ryder and CHR to certify carrier invoices. However, payments are made directly to
Ryder and CHR and there is no oversight to ensure invoice accuracy.

Ultimately, it is the CO’s responsibility to ensure the contractor fulfills contract terms,
which includes monitoring contract performance. Without verification, contracting
officials cannot be assured that accurate rates are charged per approved price
schedules, deliveries are timely, and customers are receiving goods. In addition, by not
monitoring performance, the Postal Service risks having the contractors select poor
performing carriers. As a result, we are reporting unrecoverable unsupported
questioned costs of $41,916,714.




4
    Supply Management Practices and Principles, Process Step 5: Measure and Manage Supply, Make Payment Task.




                                                       8
The Postal Service Certification Process of                 CA-AR-09-002
 Non-Mail Freight Transportation Invoices


                        APPENDIX C: MANAGEMENT’S COMMENTS




                                              9
The Postal Service Certification Process of        CA-AR-09-002
 Non-Mail Freight Transportation Invoices




                                              10
